                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Deputy Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          July 3, 2013

Subject:       Final Report on the Audit of Peace Corps/Jamaica
               (IG-13-05-A)

Transmitted for your information is our final report on the audit of Peace Corps/Jamaica.

Management concurred with all 10 recommendations. We closed one recommendation (number
8) based on a review of corrective actions and supporting documentation. The remaining
recommendations will stay open pending confirmation from the chief compliance offer that the
documentation identified in management’s response has been received. In its response,
management described actions it is taking or intends to take to address the issues that prompted
each of our recommendations. We wish to note that in closing recommendations, we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix D, address these matters. Please respond
with documentation to close the remaining open recommendations within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Joseph Hepp, Chief Financial Officer
        Paul Shea, Deputy Chief Financial Officer
        Samuel Taylor, Budget Officer
        Nina Favor, Acting Regional Director, IAP
        Nancy Gehron, Acting Chief Administrative Officer, IAP
        Edward Hobson, Associate Director, Safety and Security
        Brenda Goodman, Deputy Associate Director, Volunteer Support
        Marie McLeod, Director, Office of Global Health and HIV
Carla Ellis, Country Director, Jamaica
Daniel Mandell, Director of Management and Operations
Jennifer Parrish-Taylor, Special Assistant to the Chief Compliance Officer
Jamaica Country Desk
 Peace Corps
 Office of Inspector General




Peace Corps/Jamaica Volunteers John and Wanda Eddy with host family




                         Flag of Jamaica


            Final Audit Report:
           Peace Corps/Jamaica
                     IG-13-05-A

                                                                July 2013
                               EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Jamaica (hereafter
referred to as “the post”) from September 10 to September 21, 2012.

Staff:
   U.S. direct hires: 2
   Foreign service nationals: 3
   Full-time personal services
   contractors (PSC):17
   Part-time PSC: 9
   U.S. PSC: 1

Spending (approx.):
   FY 2012 post spending - $2.640 million
   Average regional overhead - $414,000                           Map of Jamaica

WHAT WE FOUND
The post’s financial and administrative operations were generally effective and in overall
compliance with agency policies and federal regulations. However, the post did not:

   Have the appropriate supporting documents to disburse approximately $373,000 in lease
   costs to the Ministry of Foreign Affairs and Foreign Trade.

   Effectively manage its vehicle fleet. Reducing the total number vehicles could yield
   approximately $21,000 in sales and save on maintenance costs for each vehicle.

   Consistently present a tax exemption certificate at point of sale and did not claim refunds for
   Value Added Tax (VAT) of approximately $1,500.

   Have a consistent and verifiable methodology for allocating indirect costs to the U.S.
   President’s Emergency Plan for AIDS Relief (PEPFAR) funds.

Further, the post did not execute a lease for the five months after the expiration of the previous
lease; did not adequately track residential furniture; and could strengthen controls over medically
confidential information, grant funding, and billing and collection.

RECOMMENDATIONS IN BRIEF
Our report contains 10 recommendations directed to both the post and headquarters, including:
that the post obtain a memorandum of understanding (MOU) with the ministry; maximize tax
deductions; and reduce the number of vehicles. We also recommended that the Office of
Management develop a standard process to fund vehicle leases and reassess the current vehicle
fleet formulation and the Office of Global Health and HIV develop and implement a
methodology for allocating indirect costs and reconciling staging costs to PEPFAR.


Final Audit Report: Peace Corps/Jamaica                                                              i
Management concurred with all 10 recommendations. We closed one recommendation (number
8). The remaining nine recommendations will remain open pending documentation described in
Appendix D.




Preliminary Audit Report: Peace Corps/Jamaica                                                ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY................................................................................................................. i

BACKGROUND ................................................................................................................................. 1

AUDIT RESULTS .............................................................................................................................. 1
          LEASES............................................................................................................................................................. 1

          VEHICLE MANAGEMENT .................................................................................................................................. 3

          PEPFAR .......................................................................................................................................................... 6

          VALUE ADDED TAX ......................................................................................................................................... 7

          PROPERTY MANAGEMENT ................................................................................................................................ 8

          BILLING AND COLLECTION ............................................................................................................................... 9

          MEDICAL CONFIDENTIALITY ............................................................................................................................ 9


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ................................. 11

LIST OF RECOMMENDATIONS................................................................................................ 12

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 13

APPENDIX B: LIST OF ACRONYMS ........................................................................................ 14

APPENDIX C: LETTER FROM THE MINISTRY REGARDING THE LEASE
AGREEMENT .................................................................................................................................. 15

APPENDIX D: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ..... 16

APPENDIX E: OIG COMMENTS ................................................................................................ 23

APPENDIX F: AUDIT COMPLETION AND OIG CONTACT.............................................. 24
                                             BACKGROUND
OIG conducted its audit of the post September 10 to September 22, 2012. We previously
performed an audit March 14 to April 1, 2005 and issued our report in September 2005
(IG-05-19-A).

The post was established in 1962. At the time of our audit, 65 Volunteers were working in the
following sectors: education, community development and youth development, environment and
agriculture. The post had two U.S. direct hires, three foreign service nationals, 17 full-time
personal services contractors, nine part-time personal services contractors, and one U.S. personal
services contractor. The post’s FY 2012 spending was approximately $2.640 million. In addition
at headquarters the IAP region incurred an average of $414,000 per overseas post. 1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                            AUDIT RESULTS
LEASES

Despite prior audit recommendations from 2005, the post continued to disburse approximately
$373,000 in lease payments to the Ministry of Foreign Affairs and Foreign Trade without
appropriate supporting documents for the periods FYs 2009-2012.

The Peace Corps Manual section (MS) 753 paragraph 4.2.1, “Documentary Evidence of
Obligations,” states:
         31 U.S.C. [U.S. Code] 1501 prescribes that all obligations must be supported by documentary evidence of
         transactions authorized by law, such as: a binding agreement in writing, a valid loan agreement, certain
         orders placed with government agencies, a grant or subsidy, a liability resulting from pending litigation,
         employment of persons, expenses of travel, or other legal liabilities of the United States.

MS 732, “Acquisition Regulations, Rules, and Procedures - Overseas and U.S.,” requires that:

          Procurement in excess of the small purchase limitation threshold must be supported by a bilaterally signed
         contract or lease which establishes the complete terms governing the purchase.




1
  The agency was unable to provide the total cost per post as certain costs are centrally-budgeted and managed by
headquarters offices including U.S. Direct Hires salaries and benefits. The Office of Budget and Analysis provided
the total cost of $8.689 million incurred by the IAP region in direct support of its 21 overseas posts in FY 2011, with
an average of $414,000 per post.


Final Audit Report: Peace Corps/Jamaica                                                                               1
In the 2005 audit report on Peace Corps/Jamaica (IG-05-19-A), OIG noted:

        The post did not execute a lease for the office. The post subleases its office space from the Jamaican
        Ministry of Foreign Affairs. There was no lease agreement between the post and the Ministry as required
        by PCM section 733.4.1. Rather, provisions were contained in correspondence between the Ministry and
        the owner of the property.

In 2005, IAP regional management and the chief acquisition officer concurred with OIG’s
finding and recommendation that the post should execute an appropriate lease with the ministry
that meets the requirements of valid obligating document standards.

On September 28, 2007, the post entered into a lease agreement for the same office space with a new
landlord, for five years with monthly rent of approximately $9,000. Per the agreement:

    (i) The Ministry would pay 200,000 Jamaican Dollars (JMD) as HCC,
    (ii) the post would pay the balance of rent to the Ministry, and
    (iii) the Ministry would pay total monthly rent to the landlord, on behalf of the post.

Despite entering into a new lease agreement, the post did not execute a formal agreement with the
ministry or obtain the ministry signature on the lease or on other documentation. As a result, neither
the post, Office of Acquisitions and Contract Management (OACM) or the Office of Global
Accounts Payable (OGAP) had a valid obligating document when Peace Corps disbursed
approximately JMD 37,900,000 or $443,000 U.S. dollar equivalent (USDE) from FY 2008 to FY
2012 to the ministry.

After OIG identified these issues, the post contacted the ministry and obtained a copy of a letter of
intent dated February 28, 2008, titled “RE: Expenses – United States Peace Corps of Jamaica.” The
letter detailed the annual lease costs for the period October 10, 2007 to October 9, 2008 was
$109,300 and that the ministry would make monthly payments of JMD 200,000 (see Appendix C).
The post characterized the “letter of intent,” which was signed only by the ministry and directed to
the landlord of the office building as an adequate obligating document. OACM subsequently
reviewed the documentation and determined that the documents together imposed a legal liability on
the parties, there was an offer, acceptance (although not all signatures on one document),
consideration (agreement amount of money to be paid)” and therefore evidence for the Government
obligations”. We noted that the letter of intent was dated over four months after the period started.
OIG believes that the letter of intent can be accepted as a valid obligating document to support the
payment of approximately JMD 5,321,000 or $70,000 USDE disbursed for the period October 10,
2007 to October 9, 2008. However, the post could not provide supporting documents to demonstrate
the ministry’s intent or agreement to cover the lease from October 10, 2009 to October 9, 2012. As a
result, we concluded that the lease payments of JMD 32,569,073 or $373,000 USDE 2 for the
remaining period are still without proper obligating documents.

Although we were not aware of any difficulties experienced by the post in occupying the office
space; recording obligations and making disbursements without a binding written agreement does
not comply with agency policy and 31 U.S.C. §1501. The post should have a separate lease
2
  Total amount disbursed JMD 37,900,000 ($443,000 USDE) less amount disbursed for the period October 10, 2009
to October 9, 2012 (JMD 5,320,810 or $70,000 USDE).


Final Audit Report: Peace Corps/Jamaica                                                                           2
agreement with the landlord using the standard lease template and a signed memorandum of
understanding (MOU) with the ministry to outline the roles and responsibilities with respect to host
country contributions.

In addition, we noted the following issues with the current lease and host country contribution
arrangement: (i) by combining the office lease and the MOU in a single document the post excluded
lease terms designed to protect the Peace Corps in the event of a dispute; (ii) the post did not record
the annual payment of JMD 200,000 made by the ministry to the landlord as HCC; and (iii) the post
did not obtain a “release of claims” memo from the landlord acknowledging that the landlord had
received all payments under the agreement after the lease expired on October 9, 2012.

During our audit the post worked with OACM to separate the lease agreement from the MOU. On
March 20, 2013, post executed a new lease and on April 10, 2013 the post obtained the release from
the landlord for the previous lease. Post was still in the process of developing an official MOU with
the Government of Jamaica.

The post did not execute a new lease when the MOU expired on October 9, 2012 and continued to
occupy the space without a formal agreement for over five months.

During our site visit in September 2012, we communicated to the country director and the director of
management and operations (DMO) that the post’s lease would expire in October 2012. However,
the post did not execute the lease until March 20, 2013, therefore occupying the office building
without a formal agreement. Post management had not provided a valid justification for the delay
and the post should have planned for the new lease to be executed timely.

After we identified the issue, the post obtained legal advice from a law firm in Jamaica to determine
whether the Peace Corps had rights as a tenant of the property despite the aforementioned
circumstances. The lawyer advised that (i) under local law the Peace Corps did have right occupy the
property as a tenant with the signing of the renewal option on October 1, 2011 and acceptance of the
renewal and (ii) “a monthly tenancy between the Peace Corps and the landlord can be inferred” by
the monthly payments made after the expiration of the lease. However, the post continued to create a
legal liability for payment without a proper written contract or agreement.

   We recommend:

   1. That the post sign a memorandum of understanding with the Ministry of Foreign Affairs and
      Trade detailing the roles and responsibilities of the post and the ministry and record host
      country contribution per agency policy.


VEHICLE MANAGEMENT

The post’s vehicle fleet could be managed more efficiently.

Presidential Memorandum “Federal Fleet Performance,” states, “...the Federal fleet should operate
only as many vehicles as needed to work efficiently....” (May 24, 2011). MS 527 and the Peace



Final Audit Report: Peace Corps/Jamaica                                                            3
Corps’ Vehicle Fleet Management Guide provides guidance on establishing the maximum number of
vehicles a post’s is authorized (vehicle ceiling).

The post’s annual vehicle status report of August 2012 listed 10 authorized vehicles with an
annual operating cost of approximately $26,486 to support 65 Volunteers. The post has
approximately one vehicle for every six and a half Volunteers, which is almost double the
agency-wide ratio of one vehicle for every 12 Volunteers3, in a country slightly smaller than the
state of Connecticut. 4

The vehicle fleet included eight automatic and two manual shift vehicles. The post had one
designated driver and two other employees who are licensed to operate the larger, manual-shift
vehicles.

             Table 1. FY 2012 Annual Vehicle Maintenance and Fuel Cost (in USDE)
       Vehicle                                                                    Total              Mileage
       Model                     Fuel              Maintenance                    Cost                (Km)
    Bus - 2003                   1,107                          3,209              4,316                   4,146
    Bus - 2006                   1,012                            369              1,381                   6,535
    Ford F 50 - 2007               813                               0               813                   2,948
    Land Cruiser -               3,754                           1436              5,190                 24,859
    2009
    Rav 4 - 2009                 1,874                            243              2,117                 11,397
    Rav 4 - 2009                   882                            428              1,310                   4,860
    Rav 4 - 2009                 1,590                          1,272              2,862                 10,455
    Land Cruiser -               4,204                          1,975              6,179                 30,460
    2010
    Ford Everest -                 913                            276              1,189                   6,102
    2011
    Rav 4 - 2012                   905                            224              1,129                   4,795
    Totals                     $17,054                         $9,432            $26,486                106,557

During the 12 months ending August 2012, only four out of the 10 vehicles were used regularly
by the post staff. These four vehicles accounted for approximately 65 percent of total miles
driven and 48 percent of maintenance costs incurred and accumulated between 10,000 and
30,000 kilometers each. The remaining vehicles accumulated between 3,000 to 6,500 kilometers.
Despite of low mileage driven, the remaining vehicles accounted for approximately 52 percent of
the total maintenance cost. By distributing vehicle use more evenly and reducing the vehicle
level, we estimate that the post could save an average of $943 ($9,432 total maintenance cost
divided by 10 vehicles) and Peace Corps would receive $20,112 on the average sale per vehicle. 5


3
  Vehicle Fleet Management working group study 2009.
4
  Jamaica Geography, The World Factbook, March 1, 2009.
5
  Vehicle sale price depends on many factors including the vehicle type, mileage, and the current demand. We
estimated sale price based on the average of the two vehicle sales conducted in FY 2012 for $19,101 and $21,123.


Final Audit Report: Peace Corps/Jamaica                                                                            4
According to post’s general services officer (GSO), the post uses the larger vehicles primarily
during Volunteer pre-service training (PST), in-service training (IST) and other special
occasions. The post uses these other vehicles only when the four frequently used vehicles are not
available as the staff finds them uncomfortable and more difficult to operate. The post also uses a
large capacity vehicle from the U.S. Embassy as needed.

 Figure 1. Minibus used during training (left) and vehicles in the post’s parking lot (right)




Based on our discussion with staff and analysis of vehicle fleet data, we determined that post
should consider leasing vehicles during PST and IST, which would help reduce overall costs to
the agency, including lower maintenance costs for vehicles on-hand. We recognize that such
action while lowering costs to the agency may shift the annual cost from headquarters to the
post. MS 527 chapter 5.2 states, “The Office of Management is responsible for the cost of
procurement of replacement vehicles.” The Office of Management is not responsible for paying
for leased vehicles. Therefore, posts usually bear the costs involved in the lease and do not have
an incentive to reduce procurements and fully utilize leasing options.

The Peace Corps’ procedures for determining the maximum number of vehicles at a post
requires improvement.

Posts establish their vehicle ceiling using a template in the Vehicle Fleet Management Guide.
Although the template used to determine the vehicle ceiling includes a narrative on the country
profile and geographical/environmental factors, these are not required in the base calculation.
Instead, the formula only includes specific staff positions, offices, and unique programs.
According to the Vehicle Fleet Management Guide:

       Vehicle Ceiling:
       The vehicle ceiling is based upon the vehicle ceiling formula and the number of vehicles the Region has
       approved.

        Vehicle Ceiling Formula:
                1 per Country Director
                1 per Administrative Officer
                1 per Medical Unit
                1 per APCD/PTO
                1 or 2 PEPFAR HIV/AIDS dedicated vehicles.
                1 per Training*
                1 per Regional Staff**



Final Audit Report: Peace Corps/Jamaica                                                                          5
                   *Training = Post has a permanent training site, large trainee input, multiple PST/IST per year
                   and requires a dedicated training vehicle(s).
                   **Regional Staff = Post has regional staff that require motor vehicles staged at their location.
                   (Example: APCMO, PCSSO, SRPTC, etc.)

The formula does not include factors related to the size of the geographic area served, number of
Volunteers, capability of staff to drive the vehicles, level of vehicles needed during peak periods
such as PST and IST, and leasing options in the country. The guide states that the Office of
Administrative Services and regional chief administrative officer “may decide to adjust Post’s
formula ceiling up or down.” However, by providing the current formula as the base, the guide
encourages posts to use this formula as a minimum and does not encourage the most efficient
allocation of the agency’s vehicles. A more comprehensive formula would include additional
factors in establishing the base and provide guidance to posts on how to reduce the fleet size by
using leased vehicles to meet peak demand during specific events, such as PST or IST.

Executive Order 13154 “requires agencies to measure, manage, and reduce greenhouse gas
emissions toward agency-defined targets” to include reducing vehicle fleet petroleum use. It also
stated that, “Each agency will develop and carry out an integrated Strategic Sustainability
Performance Plan that prioritizes the agency’s actions toward the goals of the Executive Order
based on lifecycle return on investments.” 6 Accordingly, reducing the fleet in PC/Jamaica as well
as optimizing the fleet vehicle formula would support the agency in meeting the objectives it
outlined in its 2012 Sustainability and Performance Plan.

    We recommend:

    2. That the Office of Administrative Services, in conjunction with the Office of Budget and
       Analysis, develop a standard process to fund vehicle leases that will promote cost savings
       through a reduction in post fleet sizes.

    3. That the Office of Administrative Services reassess the current vehicle fleet formula and
       modify the calculation or provide alternatives that to include additional factors such as the
       size of geographic area served, number of Volunteers, frequency of use and leasing options
       in country when determining the optimum fleet size.

    4. That the country director determine the appropriate number of vehicles required for the
         post’s operation and reduce the number of vehicles accordingly.


PEPFAR

The post did not allocate indirect costs to PEPFAR related activities using consistent and
reliable methodology and the agency did not reconcile the staging cost charged to PEPFAR
with the actual number of Volunteers assigned to PEPFAR by the post.

6
 The OIG recognizes that E.O. 13154 specifically excludes activities, personnel, resources, and facilities outside the
United States. Nevertheless, it its 2012 Strategic Sustainability Performance Plan the agency reiterates former
Director Williams comprehensive commitment to sustainability and to applying the principles of the E.O. to both
domestic and international operations.


Final Audit Report: Peace Corps/Jamaica                                                                               6
The Department of State PEPFAR website and Office of Global Health and HIV instructions
provide guidance for the allocation of indirect cost. FY 12 Peace Corps Guidance for
Implementation Plans stated that:

       Costs attributed to a group (that includes both PEPFAR-funded individuals and not) can be obligated using
       percentages. It is not necessary to split-fund all costs of an event or activity based on these percentages. For
       ease of administration, it is recommended that a group of costs that are roughly equal to the percent of the
       overall cost attributed to PEPFAR be charged to PEPFAR.

Indirect Costs at the Post. The post allocated direct costs based on the number of Volunteers
directly involved in PEPFAR activities. However, the post lacked a consistent and verifiable
method of allocating indirect cost to PEPFAR related activities. For example, when all
Volunteers (PEPFAR and others) were engaged in common activities, such as IST, the post
charged several invoices to PEPFAR. The post could not demonstrate if the amount charged to
PEPFAR for common activities was over or under charged based on the guidance.

Staging Costs. The headquarter offices used an estimated number of PEPFAR Volunteers to
charge relevant staging costs to PEPFAR. However, Office of Global Health and HIV did not
reconcile the final staging cost charged to PEPFAR with the actual number of Volunteers
assigned to PEPFAR by the post. Although the post originally estimated eight PEPFAR
Volunteers, only six PEPFAR Volunteers were assigned by the post from the FY 2012 staging
group. As a result, headquarters overcharged PEPFAR travel and per diem costs by
approximately $2,300. Based on our audit, the budget analyst processed a journal voucher to
adjust the amount charged to PEPFAR. Without a reconciliation process for staging costs, Peace
Corps may not be allocating all of the proper costs to PEPFAR funds.

   We recommend:

   5. That the director of management and operations, in coordination with Office of Global
      Health and HIV, develop a methodology for allocating indirect costs to U.S. President’s
      Emergency Plan for AIDS Relief related activities and consistently use it.

   6. That the Office of Global Heath and HIV implement a process to reconcile the staging costs
      charged to U.S. President’s Emergency Plan for AIDS Relief funds to ensure the costs are
      properly allocated.


VALUE ADDED TAX

The post did not consistently present its tax exemption certificate at point of sales and did not
claim refunds for VAT paid.

The country agreement between the U.S. Peace Corps and the government of Jamaica, states:

       The Government of Jamaica will exempt from all taxes, customs duties and other charges, all equipment
       and supplies introduced into or acquired in Jamaica by the Government of the United States, or any
       contractor financed by it, for use hereunder.




Final Audit Report: Peace Corps/Jamaica                                                                               7
At the time of the audit, the post did not have a valid registration with the Ministry of Finance for
VAT refunds. The post is allowed to claim exemption at the point of sale by issuing a letter
requesting vendors not to charge value added tax. Further, the post was entitled to claim refunds
for past tax payments up to six years with active and valid registration with the Ministry of
Finance. According to the Jamaican Tax Administration, the post was allowed to claim any taxes
paid to vendors up to six years back with valid registration with the Ministry of Finance. Even
though post did not have a valid registration, it could still submit an application for registration
with the Ministry of Finance to get refunds for the past two years. Additionally, we noted
instances where vendors charged the post tax because the post did not provide a letter for
exemption to the vendor in a consistent manner, which contributed to the post not taking full
advantage of the tax exemption.

During our audit, we reviewed a judgmental sample of 146 vouchers from FY 2012 to identify
the types of invoices with tax charges included in the invoice. We determined that 17 vouchers
included vendor’s invoices with total unclaimed VAT of $1,500. In addition, we determined that
the post did not always claim VAT refund on travel and credit card charges.

   We recommend:

   7. That the director of management and operation develop a process to maximize getting tax
      deducted from the invoice at the point of sale and request tax refunds from the Ministry of
      Finance when post in unable to remove taxes at the point of sale.


PROPERTY MANAGEMENT

The post did not track residential furniture in the property management system.

The Peace Corps’ Personal Property Management Handbook requires posts to track residential
assets with a life expectancy of over one year and an initial acquisition cost of $100 or more.
During our audit, we noted that BarTracks, the post’s property management system, did not
include residential furniture. The post’s management was not aware that such items should be
tracked and inventoried. According to the Personal Property Management Handbook, “Proper
management of U.S. Government property ensures that needed assets are available, usable, and
functioning appropriately throughout their life span to allow Peace Corps Staff and Volunteers to
perform their duties in the most effective manner possible.”

   We recommend:

   8. That the post update the information in the BarTracks system to include all required
      properties and information, including residential assets, in compliance with MS 511 and
      relevant guidance.




Final Audit Report: Peace Corps/Jamaica                                                             8
BILLING AND COLLECTION

The post did not properly separate duties of issuing, voiding, and approving bills of collection
(BOC).

The Overseas Financial Management Handbook chapter 7 states:

    Posts must maintain separation of responsibly in the performance of billing and collection to ensure that
    adequate internal controls are in place.

    The same individual who performs the collection activities may not perform billing activities.
    The Administrative Officer (Director of Management and Operations) (AO) or the Financial Assistant
    normally serve as the Billing Officer.

Key roles and responsibilities in the BOC process include the billing officer who determines the
amount owed and prepares the BOC, the collection officer who receives the payment, and the
supervisor who reviews BOC to ensure payments are received timely and in full. The post lacked
proper separation of duties because the DMO was acting as the billing officer and the approving
official for financial transactions. The DMO supervised the cashier, who served as collection
officer, and could also issue and void BOC.

We also noted that the post had not assigned or trained a back-up for the billing officer, which
could have assumed responsibilities as an acting billing officer. Proper separation of duties is
necessary to mitigate the risk of fraud and misappropriation of agency funds.

   We recommend:

   9. That the director of management and operations assign a billing officer and back-up for
      billing officer and collection officer.


MEDICAL CONFIDENTIALITY

The post did not properly safeguard Volunteers’ medically confidential information included
in pharmacy invoices.

The Overseas Financial Management Handbook chapter 66 states:

       The names of the Trainees/Volunteers are required so that approving and certifying officers can verify that
       those receiving the supplies/services are serving as Volunteers. This information is required on all
       vouchers but it must be emphasized to all staff privy to this information, including administrative assistants,
       cashiers, or others, that the information must be held in the strictest of confidence and that any violation of
       the Volunteers privacy may result in termination.

To maintain medical confidentiality, the section provides a series of steps to be followed by the
post and certifying officers, including placing invoices with confidential information in sealed
envelopes.




Final Audit Report: Peace Corps/Jamaica                                                                             9
During our review of disbursement vouchers for medical supplies the post did not follow this
guidance on medical confidentiality. We noted that the Peace Corps medical officer issued
prescriptions to Volunteers to obtain medicine from retail pharmacies, instead of maintaining
inventory of required medicine at the post. After filling the prescriptions, the pharmacy
submitted invoices to the post for payment. The pharmacy invoices included Volunteer names
and medications provided. These invoices were approved by the Peace Corps medical officer and
were provided to the finance staff for processing, without placing the information in sealed
envelopes. These invoices and their copies were easily accessible to several post staff. As a
result, Volunteer’s medically confidential information was exposed to non-medical staff without
explicit approval of the Volunteers. Disclosure of medically confidential information is a
violation of Peace Corps policies and can compromise Volunteer safety.

   We recommend:

   10. That the country director instruct post staff to comply with the Overseas Financial
       Management Handbook requirements to protect medically confidential information of
       Volunteers.




Final Audit Report: Peace Corps/Jamaica                                                      10
                         QUESTIONED COSTS AND
                      FUNDS TO BE PUT TO BETTER USE
We identified funds to be put to better use and questioned costs during the course of the audit.

                                  Funds to be Put to Better Use

   Recommendation
                                                Description                             Amount
       number
                        Estimated sale price of the excess vehicle and annual
            6                                                                           $21,055
                        maintenance cost
            9           Potential unclaimed Value Added Tax                              $1,500


                                          Unsupported Cost

   Recommendation
                                                Description                             Amount
       number
                        The post made payment to the Ministry of Foreign Affairs to
            1           pay monthly office lease expenses to the lessor without valid   $373,000
                        obligating documents.


The Inspector General Act defines funds put to better use and questioned costs as the following:

       Funds to be put to better use: funds that could be used more efficiently if management
       took actions to implement and complete the recommendation.

       Questioned costs: costs that are questioned because of an alleged violation of a provision
       of a law, regulation, contract, grant, cooperative agreement or document governing
       expenditure of funds; a finding that, at the time of the audit, such cost is not supported by
       adequate documentation; or a finding that the expenditure of funds for the intended
       purpose is unnecessary or unreasonable.




Final Audit Report: Peace Corps/Jamaica                                                            11
                         LIST OF RECOMMENDATIONS
We recommend:

   1. That the post sign a memorandum of understanding with the Ministry of Foreign Affairs and
      Trade detailing the roles and responsibilities of the post and the ministry and record host
      country contribution per agency policy.

   2. That the Office of Administrative Services, in conjunction with the Office of Budget and
      Analysis, develop a standard process to fund vehicle leases that will promote cost savings
      through a reduction in post fleet sizes.

   3. That the Office of Administrative Services reassess the current vehicle fleet formula and
      modify the calculation or provide alternatives that to include additional factors such as the
      size of geographic area served, number of Volunteers, frequency of use and leasing options
      in country when determining the optimum fleet size.

   4. That the country director determine the appropriate number of vehicles required for the
       post’s operation and reduce the number of vehicles accordingly.

   5. That the director of management and operations, in coordination with Office of Global
      Health and HIV, develop a methodology for allocating indirect costs to U.S. President’s
      Emergency Plan for AIDS Relief related activities and consistently use it.

   6. That the Office of Global Heath and HIV implement a process to reconcile the staging costs
      charged to U.S. President’s Emergency Plan for AIDS Relief funds to ensure the costs are
      properly allocated.

   7. That the director of management and operation develop a process to maximize getting tax
      deducted from the invoice at the point of sale and request tax refunds from the Ministry of
      Finance when post in unable to remove taxes at the point of sale.

   8. That the post update the information in the BarTracks system to include all required
      properties and information, including residential assets, in compliance with MS 511 and
      relevant guidance.

   9. That the director of management and operations assign a billing officer and back-up for
      billing officer and collection officer.

   10. That the country director instruct post staff to comply with the Overseas Financial
       Management Handbook requirements to protect medically confidential information of
       Volunteers.




Final Audit Report: Peace Corps/Jamaica                                                         12
     APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of PC/Jamaica covered fiscal years 2010, 2011, and 2012. We expanded our audit
scope to FY 2008 as needed for to achieve audit objectives regarding leases. While at the post,
we interviewed key staff including the country director, DMO, staff responsible for
administrative support, and the lead Peace Corps medical officer. We communicated issues and
areas of improvement to senior staff at post and Peace Corps management at headquarters and
included significant issues noted during our audit in this report. We primarily reviewed the
following processes and associated controls:

           BOCs
           Contracts and leases
           Cash and Non-cash payments
           Imprest fund
           Credit card transactions
           Information technology general controls
           Medical supplies
           PEPFAR
           Personal property and vehicles
           Personal services contracts
           Volunteer payments

Although we could not independently verify the reliability of all this information, we compared
it with other available supporting documents to determine data consistency and reasonableness.
We relied on the results of the annual Federal Information Security Management Act review,
which did not identify deficiencies with data reliability that would impact our audit. Based on
these efforts, we believe the information we obtained is sufficiently reliable for this report.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, the Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Jamaica                                                          13
                      APPENDIX B: LIST OF ACRONYMS
  BOC                        Bill of Collection
  DMO                        Director of Management and Operations
  FY                         Fiscal Year
  GSO                        General Services Officer
  HCC                        Host Country Contribution
  IAP                        Inter America Pacific
  IST                        In-service Training
  JMD                        Jamaican Dollar
  MOU                        Memorandum of Understanding
  MS                         Peace Corps Manual Section
  OACM                       Office of Acquisitions and Contract Management
  OGAP                       Office of Global Accounts Payable
  OIG                        Office of Inspector General
  PEPFAR                     President’s Emergency Plan for AIDS Relief
  PST                        Pre-service Training
  USDE                       United States Dollars Equivalent
  VAT                        Value Added Tax




Final Audit Report: Peace Corps/Jamaica                                       14
APPENDIX C: LETTER FROM THE MINISTRY REGARDING THE
                 LEASE AGREEMENT




Final Audit Report: Peace Corps/Jamaica          15
          APPENDIX D: MANAGEMENT’S RESPONSE TO THE
                               PRELIMINARY REPORT




Final Audit Report: Peace Corps/Jamaica              16
The Region will continue to work with Post and the departments identified in the Preliminary
Report to ensure closure of these recommendations by the dates included within for outstanding
recommendations.

Recommendation 1
That the post sign a memorandum of understanding with the Ministry of Foreign Affairs and
Trade detailing the roles and responsibilities of the post and the ministry and record host country
contribution per agency policy.


       Concur

       Response: Post will sign a memorandum of understanding with the Ministry of Foreign
       Affairs and Foreign Trade detailing the roles and responsibilities of the post and the
       ministry and record host country contributions per agency policy. Post met with the
       Ministry of Foreign Affairs and Foreign Trade (MFAFT) on Thursday, April 18, 2013:
       Country Director Carla Ellis and DMO Daniel Mandell met with Mrs. Margaret Jobson,
       Undersecretary for Foreign Service Operations, and Mrs. Trecia Elliott, Principal Finance
       Officer. The MFAFT informed Post that the National Land Agency (NLA) has concerns
       about the MOU, particularly Peace Corps’ status as a legal entity in Jamaica and pursuant
       ability to independently lease office space. Undersecretary Jobson stated that, while the
       MFAFT did not see an obstacle to Peace Corps independently signing a lease, the
       MFAFT will not sign the MOU until the National Land Agency has responded. The draft
       MOU, currently under review by the NLA, was finalized with the MFAFT on May 2,
       2013, along with concurrence from GC and other HQ offices. The MFAFT remains
       unable to provide an estimate of when the NLA might conclude their review. Post has
       asked the MFAFT for an introduction to an appropriate liaison at the NLA, so Post can
       work to resolve outstanding issues.

       Documents Submitted:
            PC Jamaica-MFA MOU Final Revised 5-2-2013
            RE MOU between MFAFT and Peace Corps (email from Mrs. Trecia Elliott,
            Principle Finance Officer of the Ministry of Foreign Affairs and Foreign Trade)

       Documents to be Submitted:
            Signed MOU with the Ministry of Foreign Affairs and Foreign Trade.

       Status and Timeline for Completion:
              December 1, 2013




Final Audit Report: Peace Corps/Jamaica                                                          17
Recommendation 2


That the Office of Administrative Services, in conjunction with the Office of Budget and
Analysis, develop a standard process to fund vehicle leases that will promote cost savings
through a reduction in post fleet sizes.


       Concur

       Response: The Office of Administrative Services will conduct an evaluation to
       determine if a standard process to fund vehicle leases is necessary to
       promote/incentivize/encourage fleet reductions. Based upon the evaluation, OAS will
       work with the Office of Budget and Analysis as necessary.

       Documents to be Submitted:
            Results of evaluation conducted by the Office of Administrative Services.
            Vehicle Fleet Management Guide

       Status and Timeline for Completion:
              September 30, 2013


Recommendation 3


That the Office of Administrative Services reassess the current vehicle fleet formula and modify
the calculation or provide alternatives that to include additional factors such as the size of
geographic area served, number of Volunteers, frequency of use and leasing options in country
when determining the optimum fleet size.


       Concur

       Response: The Office of Administrative Services, in coordination with Region, will
       reassess the current fleet formula and revise the formula to include factors such as area
       and volunteers served. MS 527 Procedures Manual will be updated by September 30th,
       2013.

       Documents to be Submitted:
            Procedures Manual

       Status and Timeline for Completion:
              September 30, 2013




Final Audit Report: Peace Corps/Jamaica                                                            18
Recommendation 4

That the country director determine the appropriate number of vehicles required for the post’s
operation and reduce the number of vehicles accordingly.

       Concur

       Response: Country Director will submit Vehicle Status Report (VSR) by August 31,
       2013 along with a fleet analysis and corresponding fleet size recommendations. Based on
       this analysis Post may reduce, increase, or maintain the current fleet size.

       Documents to be Submitted:
            Vehicle Status Report.
            Analysis of cost of fleet versus leasing options for post’s activities
            Memo confirming a fleet size recommendation.

       Status and Timeline for Completion:
              October 15, 2013


Recommendation 5

That the director of management and operations, in coordination with Office of Global Health
and HIV, develop a methodology for allocating indirect costs to U.S. President’s Emergency
Plan for AIDS Relief related activities and consistently use it.

       Concur

       Response: The DMO, in coordination with OGHH, has developed a methodology for
       allocating indirect costs to PEPFAR for AIDS Relief related activities and will
       consistently use it. Peace Corps Jamaica will calculate the ratio of PEPFAR V-years over
       total V-years in September of each year. Using that ratio they will expense appropriate
       support costs using PEPFAR funds in October.
       Documents Submitted:
               Methodology for allocating indirect costs to PEPFAR

       Documents to be Submitted:
            Spreadsheet of support costs allocated to PEPFAR based on the ratio of V-years

       Status and Timeline for Completion:
              November 30, 2013




Final Audit Report: Peace Corps/Jamaica                                                          19
Recommendation 6

That the Office of Global Heath and HIV implement a process to reconcile the staging costs
charged to U.S. President’s Emergency Plan for AIDS Relief funds to ensure the costs are
properly allocated.

       Concur
       Response: OGHH signs for all staging costs for PEPFAR-funded Volunteers. The
       office has now added a step to the process to scan and send the signed staging document
       to the post DMO. This allows the DMO to understand why funds were obligated against
       their account and to verify the number of Volunteers funded with their records. In
       addition, OGHH is working with Budget and the Office of Global Accounts Payable to
       ensure that once the staging documents reach their level, they charge all purchases
       correctly based on the number of Volunteers and costs on the document.

       Documents Submitted:
            OGHH’s Standard Operating Procedure

       Status and Timeline for Completion:
              June 14, 2013


Recommendation 7

That the director of management and operation develop a process to maximize getting tax
deducted from the invoice at the point of sale and request tax refunds from the Ministry of
Finance when post is unable to remove taxes at the point of sale.

       Concur
       Response: The DMO has developed a process to maximize getting tax deducted from
       the invoice at the point of sale and request tax refunds from the Ministry of Finance when
       post is unable to remove taxes at the point of sale. Post will commence implementation of
       the new process on July 15, 2013, to allow time to train Post staff. Additionally, Post will
       undertake a review of credit card invoices from the last three years and request
       reimbursement for taxes paid, to be completed December 20, 2013.

       Documents Submitted:
            Process for Maximizing Tax Exemption from Point of Sale and Requesting Tax
            Refunds

       Status and Timeline for Completion:
              July 15, 2013




Final Audit Report: Peace Corps/Jamaica                                                          20
Recommendation 8

That the post update the information in the BarTracks system to include all required properties
and information, including residential assets, in compliance with MS 511 and relevant guidance.

       Concur

       Response: Post has updated the information in the BarTracks system to include all
       required properties and information, including residential assets, in compliance with MS
       511 and relevant guidance.

       Documents Submitted:
            BarTracks Asset Inventory

       Status and Timeline for Completion:
              June 11, 2013


Recommendation 9

That the director of management and operations assign a billing officer and back -up for billing
officer and collection officer.

       Concur
       Response: The DMO has assigned the Financial Assistant to be billing officer, the
       Administrative Assistant to be back-up for billing officer, and the Cashier to be collection
       officer. Post needs to work with the Embassy to modify contracts and SOWs for FSN
       positions (Financial Assistant and Cashier).

       Documents to be Submitted:
            Amended SOWs and modified contracts for each position.
            Updated Organization Chart from Post

       Status and Timeline for Completion:
              August 1, 2013



Recommendation 10

That the country director instruct post staff to comply with the Overseas Financial Management
Handbook requirements to protect medically confidential information of Volunteers.

       Concur




Final Audit Report: Peace Corps/Jamaica                                                            21
       Response: The Country Director instructed post staff to comply with the OFMH
       requirements to protect medically confidential information of Volunteers. The DMO has
       developed a process in compliance with the OFMH.

       Documents Submitted:
            Process for handling medical expenditures to protect medically confidential
            information

       Documents to be Submitted:
            Signed confidentiality statements from the FA, Cashier, GSO and
            Messenger/Driver.

       Status and Timeline for Completion:
              July 1, 2013




Final Audit Report: Peace Corps/Jamaica                                                   22
                        APPENDIX E: OIG COMMENTS
Management concurred with all 10 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We closed one recommendation (number 8) based on a review of corrective
actions and supporting documentation. The remaining recommendations will stay open pending
confirmation from the chief compliance offer that the documentation identified in management’s
response has been received. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Jamaica                                                     23
      APPENDIX F: AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                  Lead Auditor Hal Nanavati and Senior Auditor Waheed Nasser
                                  performed the audit of Peace Corps/Jamaica.




                                  Bradley Grubb
                                  Assistant Inspector General for Audit


OIG CONTACT                       If you wish to comment on the quality or usefulness of this
                                  report to help us strengthen our product, please email Assistant
                                  Inspector General for Audit Bradley Grubb at
                                  bgrubb@peacecorps.gov, or call him at 202.692.2914.




Final Audit Report: Peace Corps/Jamaica                                                         24
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
